No. 20-

IN THE
SUPREME COURT OF THE UNITED STATES

Z.B., by and through Sylvia Sanchez,
Petitioner,
vs.
DISTRICT OF COLUMBIA,
Respondent.
CERTIFICATE OF SERVICE REGARDING THIS
PETITION FOR WRIT OF CERTIORARI TO
THE COURT OF APPEALS OF THE DISTRICT
OF COLUMBIA
Petitioner, through counsel, certifies and affirms that
the aforementioned Petition for Writ of Certiorari

has been served by first class mail on the following
parties;
Sylvia Sanchez
-ANDDistrict of Columbia
John A. Wilson Building
1350 Pennsylvania Avenue NW
Washington DC 20004
-ANDSonya L. Lebsack
Loren L. AliKhan
Carolina S Van Zile
441 4th Street, NW, Suite 630
South
Washington, DC 20001

So Certified,
/S/CR
Chesseley Robinson
Counsel of Record for Petitioner
2516 Australia Drive
Raleigh, NC 27610
chesseley@chesseleycares.com

